AARON D. FORD

JESSICA L. ADAIR

Attorney General

Chief of Staff

KYLE E. N. GEORGE

LESLIE NINO PIRO
General Counsel

First Assistant Attorney General

CHRISTINE JONES BRADY
Second Assistant Attorney General

STATE OF NEVADA

HEIDI PARRY STERN
Solicitor General

OFFICE OF THE ATTORNEY GENERAL
555 E. Washington Ave. Suite 3900
Las Vegas, Nevada 89101

June 29, 2021
Via Electronic Filing
Attn: Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Tina Cates v. Bruce D. Stroud, et al., Case No. 20-1438

Dear Clerk of the Court:
I am counsel for Respondents Bruce D. Stroud, et al. for this case. Presently, any
brief in opposition is due July 1, 2021. Pursuant to Rule 30.4, I respectfully request that
Respondents’ time for filing a response be extended by 30 days, up to and including
August 2, 2021. This is Respondents’ first request for extension. Petitioners’ counsel
does not object to this request for extension.
Good cause exists for granting this extension, as the deputy attorney who has been
primarily responsible for this case and is most knowledgeable about it awaits the
imminent birth of a new child. In addition, Respondents have recently sought the
assistance of the Nevada Attorney General’s Office of the Solicitor General, a group of
attorneys more experienced with practice before this Court, who will assist with
preparation of the brief in opposition and any subsequent filings regarding this petition.
Thank you very much for your consideration.
Very truly yours,
AARON D. FORD
Attorney General
By: /s/ Heidi Parry Stern
Heidi Parry Stern (NV Bar No. 8873)
Solicitor General
cc:

Travis Barrick, Esq., Counsel for Petitioner (via ECF Notification)

Telephone: 702-486-3420 ● Fax: 702-486-3768 ● Web: ag.nv.gov ● E-mail: aginfo@ag.nv.gov
Twitter: @NevadaAG ● Facebook: /NVAttorneyGeneral ● YouTube: /NevadaAG

